                                                                                                                               July 9, 2014

Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers
 U.S. Army Corps of Engineers


Dear General Bostick:

I am writing to follow up on my letter of April 4, 2013, in which I raised safety concerns regarding
substandard spray polyurethane foam insulation systems (SPFI) used in arch-span type facilities the
U.S. Army Corps of Engineers (USACE) is constructing for the Afghan National Army (ANA). My letter
was prompted by the significant fire hazards posed by these insulation systems, which did not
comply with International Building Code (IBC) standards. In effect, it appears that 1,600 of the nearly
2,000 buildings constructed in this $1.57 billion program did not meet IBC standards and required
remediation. I requested that USACE reconsider its decision to use these noncompliant insulation
systems.

I was extremely pleased when in a letter dated April 18, 2013, the Deputy Commander of the USACE
Transatlantic Division stated that USACE would stop installing noncompliant insulation systems. He
noted that USACE had “already identified instances of contractor application of non-IBC compliant
insulation material” and that USACE had “directed the contractors in writing to cease applying the
material.” For on-going construction, USACE stated that it was “working towards a solution to ensure
IBC compliance and proper resolution of this issue.” For buildings currently occupied by the ANA,
USACE stated that it would “identify corrective measures to ensure the insulation systems in these
buildings are fully compliant with IBC standards.” Finally, USACE stated that it would verify that all
plans for future “insulation systems in the arch-span buildings are IBC compliant.”1

After receiving USACE’s letter, I directed SIGAR’s Office of Special Projects to conduct a review to
determine why USACE contractors installed noncompliant systems in the first place, the cost of
remediation, and whether USACE’s remediation efforts would ensure full IBC compliance.
The findings of that review are discussed below. However, given the assurances made by USACE last
year, I was surprised to learn that on January 21, 2014, Major General Michael R. Eyre, Commanding
General of the USACE Transatlantic Division, issued a memorandum that appears to countermand
the representations made in the April 18, 2013 letter.

General Eyre’s memo authorizes the transfer of buildings to the ANA that do not comply with IBC
standards. Despite acknowledging that these noncompliant buildings have “an increased risk in the
event of a fire,” the memo contends that the operational needs of the ANA justify this change in
policy.2 General Eyre contends that the noncompliant facilities “have an acceptable risk level to
support turnover [to the ANA]” because “the typical occupant populations for these facilities are
young, fit Afghan Soldiers and recruits who have the physical ability to make a hasty retreat during a
developing situation.”3

1   Letter of Col. John S. Hurley, Deputy Commander, U.S. Army Corps of Engineers – Transatlantic Division (April 18, 2013).
2   Memorandum of MG Michael R. Eyre (January 21, 2014), see attached.
3   Id.
I am very troubled by such logic, which seems to argue that fire hazards for a building are somehow
remediated by the youthful speed and vigor of the occupants. This logic pales in light of not only the
speed with which these building will be consumed by fire as well as the fact that a number of the
buildings in question are infirmaries and sleeping quarters. Accordingly, I strongly recommend that
USACE rescind the January 21, 2014 decision.

In addition, while I am primarily concerned that people’s lives may be at risk, I am also concerned
that USACE must now spend millions of taxpayer dollars correcting this problem because USACE did
not enforce and properly administer its own contracts. It is my hope that the results of SIGAR’s
review, which are discussed below, will prompt USACE to take steps to address the significant safety
hazards posed by these noncompliant insulation systems and to limit future costs to U.S. taxpayers.


I.      USACE Failed to Enforce Its Own Contract Requirements

In 2010, USACE began planning for construction of almost 2,000 new ANA buildings using the arch-
span method of construction, at a total cost of $1.57 billion. USACE chose arch-span buildings
because USACE believed they would cost less and could be built faster than other types of buildings.
The criteria USACE used to design and procure the arch-span buildings required the use of “standard
designs which are in accordance with the IBC.”4

The IBC sets specific requirements for the surface-burning characteristics of SPFI; the requirements
are based on generally accepted tests that products must pass in order to meet IBC standards.
Additionally, the IBC requires the separation of SPFI from the interior of a building by a thermal
barrier. The barrier must also pass tests that measure how quickly the SPFI that the barrier is
protecting rises in temperature when exposed to flame, and how long that barrier stays in place.
These requirements applied to all arch-span buildings USACE contracted for construction and
subsequent occupation by the ANA.

USACE officials told SIGAR staff that personnel tasked with approving contractor construction
proposals were not sufficiently familiar with arch-span construction or IBC standards. USACE officials
also explained that USACE provided incomplete information in the requests for proposals it supplied
to contractors. A technical review conducted by an outside architect-engineering firm of the
specifications and drawings USACE supplied to its contractors showed that USACE failed to include
the requirement for a thermal barrier in the specifications in 31 out of 58 contracts. Additionally, the
drawings supplied by USACE contained no requirements for SPFI and a thermal barrier in seven of
the contracts. Two of these seven contracts also failed to mention the SPFI and thermal barrier
requirements in the specifications, meaning both the drawings and specifications were silent on the
standards for SPFI and a thermal barrier.

Additionally, USACE failed to identify and reject substandard products proposed for use by
contractors. Contractors must identify the products they intend to use in submittals to USACE after
receiving USACE’s request for proposal. USACE officials told SIGAR that, in many cases, contractors
compiled their submissions into long documents containing a multitude of products. Some
contractors did not submit their proposed foam insulation and thermal barrier products in the same
section, which USACE asserts made it more difficult to determine if the products complied with the
IBC requirements.


4   Letter of Col. John S. Hurley (April 18, 2013).


SIGAR-14-77-SP Review: Safety of Spray Foam Insulation in ANA Facilities                          Page 2
After fires in October and December 2012 destroyed two buildings under construction, USACE
conducted an investigation and determined that 1,600 arch-span buildings completed or undergoing
construction were not IBC compliant. On February 25, 2013, USACE staff briefed the Commander of
Afghanistan Engineer – District South about the widespread use of noncompliant insulation systems.
An information paper prepared for the briefing stated that remediation of the hazardous systems
would “cause a disruption of ANA missions and activities or delay contract completions
significantly.”5 On March 10, 2013, a senior USACE official in the Transatlantic Division issued a
decision memo allowing contractors to continue installing noncompliant insulation systems despite
the safety risk.

On April 4, 2013, SIGAR sent an alert letter to USACE questioning the decision to continue installing
insulation systems that did not comply with IBC standards. On April 18, 2013, USACE responded in
writing that it had directed its contractors to stop installing noncompliant insulation systems and that
it would “ensure IBC compliance and proper resolution of this issue.” 6


II. Remediation Could Cost $50-$60 Million and USACE Will Not Ensure That All Hazardous
    Buildings Are IBC Compliant

USACE stated in its April 18, 2013 letter to SIGAR that it would “ensure IBC compliance and proper
resolution of this issue.”7 In December 2013, USACE provided SIGAR staff with an update concerning
the progress made in bringing almost 1,600 arch-span facilities into compliance with IBC standards.
The update indicated that almost 700 of the original 1,600 buildings identified as noncompliant still
required remediation and that the total cost of bringing all buildings into compliance would be $50
million to $60 million. According to that update, USACE had still not remediated 15 buildings already
occupied by the ANA.

Additionally, SIGAR personnel recently received a copy of a January 21, 2014, Memorandum For
Record, signed by Major General Michael R. Eyre, indicating that USACE has reversed its position and
will now be turning over buildings to the ANA that it knows are not IBC compliant. The memo states
that USACE identified solutions to address all the substandard insulation systems, except those
using BASF foam. General Eyre noted that “no engineering solution has been identified and validated
through testing that can be carried out on arch span buildings containing BASF foam and in
sufficient time to support the turnover of these facilities required to field ANA forces.”8

General Eyre’s memo acknowledges that “[f]acilities turned over with the BASF foam and DC 315
system will have an increased risk in the event of fire.” Despite this recognized danger, the memo
claims that the buildings using BASF foam insulation “have an acceptable risk level” because they
have multiple exits and “the typical occupant populations for these facilities are young, fit Afghan
Soldiers and recruits who have the physical ability to make a hasty retreat during a developing
situation.”




5 USACE Information Paper: Afghanistan Engineer District South, Fire Danger Related to ANA K-Span Foam Insulation and Thermal Barrier
(February 25, 2013).
6   Letter of Col. John S. Hurley (April 18, 2013).
7   Id.
8   Memorandum for Record, Major General Michael R. Eyre (January 21, 2014).


SIGAR-14-77-SP Review: Safety of Spray Foam Insulation in ANA Facilities                                                      Page 3
USACE identified three categories of buildings with substandard BASF foam that will be turned over
to the ANA: “those under contracts where some buildings already contain BASF foam; or contracts
where BASF foam has already been purchased for use by the contractor; or contracts where previous
letters of direction have been issued to the contractor directing or authorizing the use of BASF foam.”
This means that BASF foam will be used in buildings already constructed, currently under
construction, or planned for future construction, even though USACE knows the foam poses an
increased fire risk. USACE is apparently turning over to the Afghan army buildings it knows are
hazardous.

In April 2014, USACE told SIGAR that the decision not to bring all buildings into compliance with the
IBC will affect 285 buildings, including 83 barracks buildings, four medical clinics, and two fire
stations.




Figures 1 and 2– Fire at Classroom building 906 at Afghan National Army Brigade Camp Saher near Farah
Province, Afghanistan on October 17, 2012. Source: US Army Corps of Engineers. The fire incident report noted
the building was 85 percent completed and burned in 30 minutes.


The results of this review are troubling in many respects. Although I commend USACE’s efforts to
seek cost savings and other efficiencies through the use of arch-span construction, USACE’s
apparent failure to enforce its own contract requirements seems to have resulted in tens of millions
of dollars in additional costs and significant construction delays. Moreover, I am concerned that the
rush to complete these buildings has led USACE to disregard its own safety standards and, in so
doing, has jeopardized the lives of ANA personnel.

I am concerned that USACE's answer to a serious fire threat is to rely on the presumed ability of
young, fit Afghan soldiers to escape a possible fire. That is unacceptable, but even more disturbing is
that the list of buildings facing potential fire hazards includes barracks and medical facilities where
soldiers could be sleeping or unable to move rapidly to safety. This dangerous situation was created
by USACE's lack of quality control in monitoring construction of these facilities. Immediate action is
needed to bring the remaining buildings into compliance with safety standards or to show what
actions will be taken to remedy the dangerous conditions, beyond providing additional fire
extinguishers and exit signs. The ANA also needs to be alerted to the hazardous buildings, with
information about the expected improvements and their timetable.




SIGAR-14-77-SP Review: Safety of Spray Foam Insulation in ANA Facilities                              Page 4
Additionally, to avoid similar problems in the future, I encourage USACE to consider taking the
following actions:
         1) Rescind the memorandum of January 21, 2014;
         2) Review the internal procedures that led USACE to adopt contract requirements that it
            was unable to implement;
         3) Conduct an impartial evaluation of the arch-span design specifications and construction
            drawings to determine whether they are consistent with the IBC;
         4) Identify the remaining steps that need to be taken in order to ensure that all arch-span
            facilities turned over to the ANA are IBC compliant; and
         5) Identify those individuals responsible for utilizing substandard material, and provide
            within 30 days what, if any, corrective or disciplinary actions have been taken in regards
            to their conduct.

I appreciate the cooperation extended by your staff during the review, as well as their prompt
responses to my requests.

I am submitting this letter pursuant to my authority under Public Law No. 110-181, as amended, and
the Inspector General Act of 1978, as amended. Should you have any questions concerning this
letter, please contact Mr. Jack Mitchell, Director, Office of Special Projects, at (            or
                                 . Please do not hesitate to contact him if you have any questions.


                                                                           Sincerely,




                                                                           John F. Sopko
                                                                           Special Inspector General
                                                                             for Afghanistan Reconstruction


Enclosure:
    1. Attachment I: BASF Spray Foam Mitigating Actions in Afghan National Army Arch Span
       Construction – January 21, 2014
    2. Attachment II: USACE Response To Draft SIGAR Inquiry Letter – June 20, 2014
    3. Attachment III: SIGAR’S Response to USACE’s Comments




SIGAR-14-77-SP Review: Safety of Spray Foam Insulation in ANA Facilities                                  Page 5
ATTACHMENT I: BASF SPRAY FOAM MITIGATING ACTIONS IN AFGHAN NATIONAL
ARMY ARCH SPAN CONSTRUCTION – JANUARY 21, 2014




SIGAR-14-77-SP Review: Safety of Spray Foam Insulation in ANA Facilities   Page 6
SIGAR-14-77-SP Review: Safety of Spray Foam Insulation in ANA Facilities   Page 7
SIGAR-14-77-SP Review: Safety of Spray Foam Insulation in ANA Facilities   Page 8
                                                 DEPARTMENT OF THE ARMY
                                                 U.S ARMY CQRP8 OF EHGINEERS
                                                       441 G STREET, KW
                                                   WASHINGTON, DC 20"4-1000




                 CECW-CE                                                                January 18, 2014


                 MEMORANDUM FOR COMMANDER. TRANSA TI.ANTIC DIVISION. A'ITN: MG EYRE
                 {CETAD-CO), 255 FORT COLLIER RD, WINCHESTER, VA 22603-5776


                 SUBJECT: Arch Span Buil<fing Spray Foam Insulation Remediation/Completion Issues

                    I. In my capacity as the USACE Authority Having Jurisdiction (AHJ), I hereby grant the
                       Commander, Transatlantic Division (fAD), without power of redclcgation, the authority
                       to deviate from requirements for permanent occupancy set forth in paragraph 4 of
                       CECW-CE Memorandwn, dated 22 May 2013, subject: Fire Protection Authority Having
                       Jurisdiction (AHJ) Decision, Afghan Army Facilities Spray Foam Insulation.

                    2. Such authority may only be exercised in those cases where the TAD Commander
                       determines that operational necessity does not permit strict compliance with the CECW-
                       CE Mcmorandwn. 1n such cases, the TAD Commander must take all practicable
                       measures to ensure the facilities arc safe for their intended occup;mts.




                                                             ~P.E.,SES
                                                               Chief, Engineering and Construction
                                                               Directorate of Civil Works

                 DISTRIBllTION:
                 DONN BOOKER. SES T '\I>
                 now ARD STICK.LEY, SES TAD




SIGAR-14-77-SP Review: Safety of Spray Foam Insulation in ANA Facilities                                        Page 9
ATTACHMENT II: USACE RESPONSE TO DRAFT SIGAR INQUIRY LETTER – JUNE
20, 2014




SIGAR-14-77-SP Review: Safety of Spray Foam Insulation in ANA Facilities   Page 10
SIGAR-14-77-SP Review: Safety of Spray Foam Insulation in ANA Facilities   Page 11
SIGAR-14-77-SP Review: Safety of Spray Foam Insulation in ANA Facilities   Page 12
ATTACHMENT III: SIGAR’S RESPONSE TO USACE’S COMMENTS


        COMMENT ONE: We commend USACE for undertaking these corrective measures but note
         they were implemented after we sent our letter of April 4, 2013 notifying the agency of our
         concern, and after two building fires completely destroyed the structures where they
         originated.

        COMMENT TWO: SIGAR’s statement that “1,600 of the nearly 2,000 buildings constructed in
         this $1.57 billion program did not meet IBC standards and required remediation” is based on
         a document supplied by USACE on December 13, 2013. The document states that USACE
         had determined that 80 buildings had non-compliant foam applied and had been turned over
         to the ANA, 910 buildings had non-compliant foam applied and were under construction, and
         613 buildings did not yet have foam applied and were under construction. Of the 1603
         buildings accounted for in the document, USACE noted that remediation had begun for 1207
         and remediation work remained incomplete for 687.

        COMMENT THREE: We disagree that the statement is inaccurate. On March 10, 2013,
         USACE developed a Decision Paper evaluating courses of action for arch span buildings in
         various stages of planning and construction. For buildings with a partially installed foam
         insulation and thermal barrier system, USACE chose to “[a]llow the contractor(s) to install the
         current system for which submittals have been previously submitted and approved,” despite
         knowing that many products previously submitted and approved failed to comply with the
         IBC. USACE was aware that if the insulation systems were not done in accordance with the
         code and the proper safety measures, they “potentially posed a serious fire/life safety
         hazard.” SIGAR first questioned this decision in its April 4, 2013 letter to Lt. Gen. Thomas
         Bostick, and USACE acknowledged the decision in its reply from Col. John S. Hurley on April
         18, 2013.

        COMMENT FOUR: We disagree that the letter misrepresents the evidence. As detailed in our
         report, USACE has repeatedly stated it would ensure IBC compliance of arch span facilities
         turned over to the Afghan National Army. However, that will not occur since one of the foams
         USACE has stated it will accept can only pass one of two tests required for IBC compliance.
         Code compliance is not contingent upon the age and physical fitness of the occupants;
         rather by passing both required tests. Despite the merits of the NFPA 286 test, the system
         could not pass the ASTM E 84 test and thus is not compliant. Moreover, the ASTM E84 test is
         not intended to quantify duration of protection; it measures flame spread and smoke-
         developed indexes. In a December 2012 document circulated to contractors after the
         building fires, USACE’s Chief Engineer, Transatlantic South, Afghanistan Division stated,
         “Polyurethane spray-on foam insulation posses [sic] a severe fire risk due to the chemical
         make-up. Once ignited, it creates dense smoke releasing toxic fumes which will make the
         building inhabitable [sic] in a very short time.”

         Regardless of USACE’s reasons for its change in policy, the memorandum issued January 21,
         2014 declares that it will no longer mandate compliance and that USACE will permit the use
         of products that fail tests necessary in meeting the IBC. The ANA needs to be alerted to the
         hazardous buildings, with information about the expected improvements and their
         timetables.




SIGAR-14-77-SP Review: Safety of Spray Foam Insulation in ANA Facilities                         Page 13
        COMMENT FIVE: We note that in the response to our draft letter, sent for comment on June
         5, 2014, USACE did not address the 5 actions we encouraged them to take.

              1. Rescind the memorandum of January 21, 2014;
              2. Review the internal procedures that led USACE to adopt contract requirements that it
                 was unable to implement;
              3. Conduct an impartial evaluation of the arch-span design specifications and
                 construction drawings to determine whether they are consistent with IBC;
              4. Identify the remaining steps that need to be taken in order to ensure that all arch-
                 span facilities turned over to the ANA are IBC compliant; and
              5. Identify those individuals responsible for utilizing substandard material, and provide
                 within 30 days what, if any, corrective or disciplinary actions have been taken in
                 regards to their conduct.

We continue to encourage USACE to act on these suggestions.




SIGAR-14-77-SP Review: Safety of Spray Foam Insulation in ANA Facilities                        Page 14
